<html>
<title> - The Russian Doping Scandal: Protecting Whistleblowers and Combating Fraud in Sports</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




115th Congress                                Printed for the use of the 
2nd Session             Commission on Security and Cooperation in Europe 
________________________________________________________________________



                          The Russian Doping Scandal: 
                       Protecting Whistleblowers and 
                           Combating Fraud in Sports





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                         FEBRUARY 22, 2018



                             Briefing of the 
           Commission on Security and Cooperation in Europe 
________________________________________________________________________

                            Washington: 2018









               Commission on Security and Cooperation in Europe
                         234 Ford House Office Building
                              Washington, DC 20515
                                   202-225-1901
                              <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="294a5a4a4c69444840450741465c5a4c074e465f">[email&#160;protected]</a>
                              http://www.csce.gov
                               @HelsinkiComm





                  Legislative Branch Commissioners



              HOUSE                                SENATE
CHRISTOPHER H. SMITH, New Jersey       ROGER WICKER, Mississippi,      
          Co-Chairman                     Chairman
ALCEE L. HASTINGS, Florida             BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina         JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois               THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas              TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                  SHELDON WHITEHOUSE, Rhode Island

                        Executive Branch Commissioners

                           DEPARTMENT OF STATE 
                          DEPARTMENT OF DEFENSE 
                          DEPARTMENT OF COMMERCE







      ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


      ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.







 
                The Russian Doping Scandal: Protecting 
            Whistleblowers and Combating Fraud in Sports 
            
                              ____________
                              

                           February 22, 2018





                                                                            Page
                              PARTICIPANTS


Paul Massaro, Policy Advisor, Commission for Security and Cooperation 
 in Europe .............................................................       1
Jim Walden, Attorney for Dr. Grigory Rodchenkov ........................       2










                         The Russian Doping Scandal: Protecting 
                     Whistleblowers and Combating Fraud in Sports
                              ----------                              

                           February 22, 2018


              Commission on Security and Cooperation in Europe 
                              Washington, DC



    The briefing was held at 3:30 p.m. in Room 385, Russell Senate 
Office Building, Washington, DC, Paul Massaro, Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Paul Massaro, Policy Advisor, Commission for 
Security and Cooperation in Europe; and Jim Walden, Attorney for Dr. 
Grigory Rodchenkov.

    Mr. Massaro. All right. Smack dab 3:30, so let's go ahead and get 
started. Everybody, wake up. Hello, and welcome to this briefing of the 
U.S. Helsinki Commission. The commission is a unique entity of 
Congress, mandated to monitor compliance with international rules and 
standards across Europe, ranging from military affairs, to economic and 
environmental issues, to human rights. My name is Paul Massaro, and I 
am the international economic policy advisor at the commission, 
responsible primarily for anticorruption and sanctions-related issues. 
I am joined today by Jim Walden, the attorney for Russian doping 
whistleblower Dr. Grigory Rodchenkov, for this look into the dark 
underworld of fraud in sports, and what we can do about it.
    As an administrative aside, I would like to mention that camera 
crews are permitted to record the briefing in its entirety.
    Our topic today is the Russian doping scandal, a story of 
corruption and fraud on an unprecedented scale. It has now been 
demonstrated beyond a reasonable doubt that the Russian State was 
behind a systematic effort to dope their athletes and defraud the 
Olympics. No one can see how deep this rabbit hole goes, and how long 
these corrupt practices have gone on. But what we can say is that it is 
a microcosm of the conflicts playing out across the world. As clean 
athletes compete against cheaters, so do legitimate businessmen face 
off against oligarchs and governments based on the rule of law do 
battle with authoritarian kleptocrats. And much like at the Olympics, 
without the benefit of transparency and the bravery of those few who 
stand up and say enough is enough, it becomes immeasurably more 
difficult for democracy, human rights, and free markets to succeed.
    Dr. Rodchenkov is one of these brave few. Formerly the director of 
Russia's anti-doping laboratory, Dr. Rodchenkov was the lead architect 
of Russia's state-run doping program, working with the FSB, the 
successor to the Soviet KGB, to cheat the international checks put in 
place to prevent doping by Olympic athletes. That all changed in 2016, 
when Dr. Rodchenkov blew the whistle on the program he had once helped 
facilitate, resulting in suspension of Russia from the 2018 Winter 
Olympics. His revelations also generated a revitalized debate on the 
need to combat corruption in international competitions more generally.
    Dr. Rodchenkov now lives a precarious life in the United States, 
relying on whistleblower protections and fearful that Russian agents 
may one day come knocking. He seldom gives interviews or makes 
statements due to this very real threat on his life. But we are lucky 
enough today to have Jim with us, who will read an original statement 
from Dr. Rodchenkov, as well as speak to the man's story, his hopes and 
fears, and the centrality of whistleblowers in the fight against 
globalized corruption.
    To conclude, I would like to remark that the word corruption is 
mentioned 14 times in the National Security Strategy, which I have with 
me today and would like to show off. [Laughter.] Many across the U.S. 
Government and the D.C. policy community are coming to terms with the 
tremendous threat that globalized corruption and kleptocracy pose to 
U.S. national security, and the need to build not only a 21st century 
financial and legal architecture, but also an ethical society capable 
of resisting expediency and opportunism at the expense of the values we 
hold dear. This sort of society is exemplified by whistleblowers. And I 
am humbled to speak today with Jim, who represents one of the most 
impactful and courageous such whistleblowers in recent years.
    Before I hand the floor over to Jim, we would like to show the 
trailer for the Oscar-nominated documentary ``Icarus'' to bring you all 
up to speed, for those of you unfamiliar with the case. ``Icarus'' 
tells the story of Dr. Rodchenkov's decision to reveal Russia's state-
run doping operation, and the implications of this decision for him and 
the world.
    Thank you.

    [A trailer for ``Icarus'' is shown.]

    Mr. Walden. Okay. Well, first of all, I want to thank Paul and the 
Helsinki Commission for having me. It's a pleasure to be here. The 
original invitation was for Dr. Rodchenkov. And for reasons I'll 
describe, he can't be here. But I will read a statement from him. But 
it's a great honor to come to a congressional commission to talk about 
the importance of Dr. Rodchenkov's work and specifically to talk about 
the critical juncture that we are in when it comes to clean sports.
    Now, as you now know from Paul and from ``Icarus,'' and probably 
from the newspapers, Dr. Rodchenkov served for about 10 years as the 
director of the Moscow Anti-Doping Center, a collection of laboratories 
that was supposed to enforce a strict WADA code to help catch cheaters. 
Now, the World Anti-Doping Agency, or WADA, is the critical vanguard in 
the fight for clean sport. They are the ones that are supposed to be 
the gatekeepers. And you will not be surprised to learn that WADA's 
budget is made up of money from both the International Olympic 
Committee (IOC) and many individual nations. You will further not be 
surprised to know that the United States is one of the largest 
contributors to WADA's budget. Its $2.3 million annual contribution is 
the second largest, only behind the IOC.
    Now, as the world now also knows, while Dr. Rodchenkov was working 
to catch cheaters under the WADA code, he harbored a dark secret. His 
bosses in the Kremlin--by the way, who were supposed to be completely 
independent of the Moscow Anti-Doping Center--ordered him to contrive 
an elaborate doping system to allow Russian athletes to cheat clean 
athletes from around the world at world competitions including, but not 
limited to, the Olympics.
    Now, it would take me about three days, eight hours a day, to 
explain to you how sophisticated and how many people were involved in 
this system. But given the time constraints I'm going to boil it down 
to six main components. I'm going to separate them into two categories: 
Out-of-competition testing--meaning when there's not a competition 
going on--and in-competition testing. And when I talk about in-
competition testing, I'm really talking about the two events in 2014, 
the world championships and the Olympics in Sochi.
    Now, with respect to out-of-competition testing, Dr. Rodchenkov 
disclosed that Russia had long had a system that was referred to as the 
disappearing positive. For protected athletes, meaning those people 
that were on national teams, they would take performance-enhancing 
drugs but then, from time to time, be required to give urine tests--the 
primary method to detect cheating. Those athletes, when they came into 
the Moscow lab for out-of-competition testing, would be pre-tested--
meaning, before the official tests began.
    And if their urine sample tested positive--meaning it was a dirty 
test--that test was never downloaded to the ADAMS system, which is a 
system that links to WADA. Once a dirty sample is downloaded into 
ADAMS, WADA becomes aware of it and action to suspend the athlete then 
occurs. Now, according to Dr. Rodchenkov, the disappearing positive 
methodology was in place for Russia for virtually the entire time that 
he was the director of the Russian Anti-Doping Center, and was ordered 
not by him, but by his bosses in the Kremlin. And it was helped--the 
orchestration was assisted by both the Center for Sports Preparation 
and the FSB which, as Paul said, is the successor agency to the KGB. So 
that covers out-of-competition testing.
    For in-competition testing--meaning testing that occurs while the 
games are going on--the system was dizzying in its checks and balances 
to ensure that Russians didn't get caught. Before the games, athletes 
were given a very sophisticated cocktail of three performance-enhancing 
drugs. Now, the main problem, as many of you may know, with taking 
performance-enhancing drugs is the time during which it stays in your 
system. But Dr. Rodchenkov devised a way to mix the performance-
enhancing drugs with alcohol, and have the athletes swish it in their 
mouths for a while and then spit it out, so it would be absorbed under 
your tongue, sublingually. And that would keep the performance-
enhancing drugs out of your digestive system and make it harder to 
detect. That was the first innovation.
    But because athletes were going to be taking these performance-
enhancing drugs leading up to, and sometimes during, the competitions, 
the athletes were instructed to give clean urine--meaning urine that 
they provided when they weren't taking performance-enhancing drugs--so 
that there could be a way to switch their dirty urine, taken during the 
games, with clean urine that had been collected before. Now, there was 
one major obstacle to this problem. For those of you who don't know, 
during competition testing when an athlete gives urine, the athlete 
gives two samples--an A bottle and a B bottle. The A bottle is used for 
testing during the games. The B bottle is used in case there's a 
positive test in the A to check the B bottle to make sure that it 
wasn't a false positive.
    The problem was these bottles are tamper-proof. They're made by a 
Swiss company who has developed an incredible technology for caps, such 
that if you remove the cap, the cap breaks. And you can't use a 
different cap because the cap has a serial number that's the same as 
the serial number on the bottle. But the greatest innovation was when 
the FSB found in 2013 that they could open the B bottles, which 
everyone, including Dr. Rodchenkov, believed was impossible. Because if 
you could open the B bottle, then you could put clean urine in it and 
put the cap back on. They opened the bottles without breaking the cap. 
That was the next innovation.
    Then during the games, as testing began, the FSB could open the 
bottles, replace the dirty urine with clean urine, restore them to the 
lab, and then test them. And the idea was that they would then test 
clean.
    But there was another problem. The FSB could not control for 
surprise inspections on athletes, both in-competition and out of 
competition. And from time to time, WADA would send doping officers to 
take random samples for athletes. And so, in those instances, the FSB 
had a team of people that would intercept the samples once they went to 
DHL and confiscate them. So that, in five minutes, in a system that had 
so many other components to it, it's too complicated to go through.
    Now, Dr. Rodchenkov. Let me be clear about this: Dr. Rodchenkov had 
no choice but to participate in this system if he wanted to stay alive. 
And in fact, despite his service to the Russian Federation, when German 
media started to leak details of the Russian doping system from other 
whistleblowers, and it became a major problem and the WADA 
investigation started in 2015, Dr. Rodchenkov learned that the Kremlin 
was hatching a new secret plan, a plan to blame him as the lone wolf. 
And they planned to execute this, by executing him, and staging his 
suicide. And when he learned this from a friend of his at the Kremlin, 
it did not take him long to decide what to do.
    Within two days, as you saw in the trailer, he was on an airplane 
to Los Angeles, determined to tell the truth about the Russian state-
sponsored doping system. But he didn't come alone. He brought with him 
powerful evidence to corroborate the truth of his claims. He brought a 
hard drive. He brought flash drives. He brought the telephone that he 
used when he was at the Moscow lab. And what he did with that evidence 
was to turn it over to anti-doping authorities. And what they found was 
a goldmine.
    Details that have only come at the--you've seen the tip of the 
iceberg in some of the media reports that you see. Emails between 
himself and other co-conspirators about, among other things, the 
disappearing positive methodology. Memos that he wrote to his bosses at 
the Kremlin and within the FSB detailing some of the problems and 
issues with the doping system in Russia. And copious handwritten daily 
diaries that he has been keeping since he was a boy of every detail of 
every day at the Sochi Olympics, including information about what he 
was doing for the doping system and what his supervisors were doing for 
the doping system.
    Since he came to the United States, Dr. Rodchenkov has told the 
truth, first in the documentary ``Icarus,'' and then to The New York 
Times, and then to an independent commission established by WADA, 
headed by a renowned investigator named Professor Richard McLaren. Now, 
Professor McLaren didn't work alone. He assembled a team. He assembled 
a team of experienced investigators, hardscrabble people that were 
skeptical of Dr. Rodchenkov's claims. And because he knew that he 
couldn't just rely on Dr. Rodchenkov's word, he hired people to review 
all the evidence and also to look at stored samples of Russian 
athletes, the B bottles, that had been taken from the Sochi lab and 
moved to a lab in Lausanne.
    And what did Professor McLaren and his team of investigators find? 
They found that Dr. Rodchenkov was completely credible and, moreover, 
that his evidence was fully corroborated by the documents which they 
determined to be authentic, and by a rigorous and expansive testing 
protocol for the samples, which showed clear evidence of tampering--
both of the bottles themselves, because of scratches and marks, and 
because adjustments made to the urine to make the salt levels match the 
salt levels that the athlete gave at the time of the in-competition 
testing--telltale signs that Dr. Rodchenkov was telling the truth.
    And, most importantly, Dr. Rodchenkov produced the actual list of 
protected athletes. And the metadata for that list showed that it was 
not created by him. It was created by the Center for Sports 
Preparation, one of the main organizers of international sports and a 
key conspirator. And it just so happens that the scratches and marks 
and the salt found in samples of Russian athletes--because they tested 
many, many samples beyond the people on that list--the only people that 
had scratches, marks, and salt manipulation were the very people on 
this famous duchess list, which is what the list was called.
    After Dr. Rodchenkov's truth was upheld by Professor McLaren, Dr. 
Rodchenkov's cooperation did not stop. The IOC then set up two 
disciplinary commissions. And despite the fact that they delayed 
significantly interviewing him and ultimately getting evidence from 
him, they themselves set up a completely different forensic testing 
system of the same bottles that McLaren had tested, and largely 
confirmed McLaren's reports. And Dr. Rodchenkov committed himself to 
submitting over 200 pages worth of affidavits, with meticulous detail 
about not only the Russian doping program in general, but the very 
officials within Russia which were pulling the strings of the puppet, 
and the involvement not only of officials but of coaches and athletes.
    Now, let's just stop here for a second. None of Dr. Rodchenkov's 
revelations should have been news to anyone, because the evidence of a 
Russian state-sponsored doping system has been mounting for years. And 
it would take a day to go through all that evidence. But let me give 
you a couple of snippets. In 2008, there were Olympics in Beijing. And 
before the Beijing games, seven Russian athletes were suspended for 
doping violations--after, in the previous year, a whole flock of other 
Russians has been suspended. And The New York Times ran an article 
because of the mounting suspicion. And they said--and I'm 
paraphrasing--because of the number of suspensions and the varied 
sports of the suspended athletes, troubling questions are starting to 
mount about a state-sponsored doping system in Russia.
    But then in 2013, WADA became concerned that doping was on the 
rise. And starting in 2013, they published a yearly report of the 
countries that had the most, what's called, an analytical adverse 
finding--a doping violation. And guess what the report showed? Russia 
had a staggering 225 adverse analytical findings in 2013--20 percent 
more than the second-ranked country on the list. So, in 2014, WADA did 
it again. And what did they find? Russia had 148 adverse analytical 
findings, 20 percent above the next highest ranked country. They did it 
again in 2015. What did they find? Russia had 176 adverse analytical 
findings, 36 percent more than the next-highest country.
    And so think about that for a second, ladies and gentlemen. In 
three years' worth of time, Russia had almost 550 adverse analytical 
findings. And if that, in and of itself, is not compelling evidence of 
a state-sponsored doping system, I don't know what is. But I know what 
the IOC determined. The IOC determined that Dr. Rodchenkov was credible 
and, based on his evidence, they banned 43 of the athletes from the 
duchess list for lifetime bans against any further Olympic 
competitions. And so it's obviously important to talk about the 
corroboration and the verification that he's telling the truth.
    But you know what a truthful person does? A truthful person tells 
the truth no matter whether the truth is guilt or innocence. And the 
IOC also did something important based on Dr. Rodchenkov's information, 
because he exonerated some athletes. There were two wrongly accused 
Russian athletes. And rather than simply trying to blame everyone, Dr. 
Rodchenkov called it out and said: IOC, you've gotten this wrong. I 
have no reason to believe that these two people were involved. They 
weren't on the duchess list. They didn't have scratches and marks. They 
didn't have salt content. And I don't have any recollection of being 
told that they were protected athletes. And based on Dr. Rodchenkov's 
evidence, the two athletes are now competing again.
    But the IOC did something else important. It suspended not only a 
number of coaches, but a number of Russian officials--including the 
current Deputy Prime Minister of Russia Vitaly Mutko, who orchestrated 
the state-sponsored scheme, ordered it after the dismal Russian 
performance in the Vancouver Winter Olympics. And the IOC determined 
that he was legally responsible, culpable, for the state-sponsored 
doping system. So that's the good news.
    Now, here comes the bad news. Where are we now? It's not good. 
Despite all of the extensive cooperation and evidence, what result, at 
the end of the day, has the conflicted self-policing system of the 
IOC--what has it delivered to the mission of protecting clean athletes 
and upholding whistleblowers like Dr. Rodchenkov? I'm sorry to tell you 
the situation is simply shameful. Now, recall something, the IOC has a 
track record with respect to violations where a foreign government 
unduly influences either a national Olympic Committee or a lab. The 
example's Kuwait. In 2014, Kuwait passed a law. And the law, in the 
IOC's view, unduly harmed the independence of the Kuwaiti Olympic 
Committee. And the IOC found that this was a terrible transgression, 
such that the banned Kuwait from the Olympics in 2015. And the ban 
still exists, all right?
    Okay, so there's the example. What does the IOC think of what 
Russia did? Well, let's judge the words by the actions. At the time 
that these revelations first came out in The New York Times and then 
were confirmed by Professor McLaren, IOC president Thomas Bach called 
Russia's actions, and I quote, ``A shocking and unprecedented attack on 
the integrity of the Olympic Games and Sports.'' And what's more, he 
promised action. He promised that he would, quote, ``Not hesitate to 
take the toughest sanctions available against any individual or 
organization implicated in the criminality.'' So, surely you would 
think an unprecedented attack would result in an unprecedented set of 
disciplinary measures. Obviously, only a complete ban would have the 
dual purpose of punishing Russia's systematic doping system and 
deterring other cheaters.
    And when he announced, on December 5th, that there would be a ban, 
there was much international acclaim. And I confess, I was part of the 
choir. I believed the words. And so did everyone else, until they read 
the fine print. The ban wasn't a ban at all. It was hardly a slap on 
the wrist. And in retrospect, it looks like a carefully crafted PR 
stunt, a sham, and one that has earmarks of extensive negotiations with 
Russia. I mean, after all, think about it. In the current Olympic Games 
in Pyeongchang, Russia is fielding one of the largest Olympic teams, 
despite the fact that it's, quote, unquote, ``banned.''
    And they're not just competing and neutrals, the way other 
suspended countries--and for those of you who don't know what neutral 
means, it means no national insignia. You're competing under the 
Olympic flag as Olympic athletes--but Russia got a special 
dispensation. Their athletes are wearing uniforms bearing Russia's 
name. And this ban, which is really just a temporary suspension, is 
going to be lifted in this Olympic game. And mark my words--[laughs]--
by Tuesday, Thomas Bach is going to lift the ban and the Russians are 
going to march at the closing ceremony under their own national flag, 
despite this horrific behavior.
    The Olympic self-policing system has had other catastrophes as 
well. Most of the 43 lifetime bans that I spoke about before, imposed 
by the IOC, have now been overturned by the highest court in sport, 
which is called the Court of Arbitration for Sport, allowing most of 
the athletes to compete again. But, most egregiously, Russia has been 
permitted, remarkably, to stonewall the IOC and WADA. Despite almost on 
a daily basis protesting their innocent and decrying the doping scandal 
as a byproduct of some Western conspiracy--in which, I assume, I must 
be a conspirator--Russia refuses to turn over critical evidence that 
was ordered by WADA more than a year ago.
    Why? If they're innocent, and there's no doping system, then why 
not turn over the evidence? And let me just unpack that a little bit 
for you when we talk about the evidence. There are a lot of things that 
can be manipulated within a doping laboratory. But there's one thing 
that can't be. The testing equipment itself, as long as you're not 
running a pretest, records the results of the test on the computer 
drive for the testing equipment. And you can't change that, right? 
There is no way to alter it. There's no way to fake it. There's no way 
to change it at all. It's a permanent record. And WADA told Russia to 
turn over that data. And they've refused. And if that's not an 
admission of guilt, I really don't know what it is.
    But let's ask another question: Honestly, has Russia accepted a 
scintilla of responsibility for this, despite the fact that, at least 
now, with respect to 11 athletes, the bans were in fact upheld by the 
Court for Sports Arbitration? Well, this comment from Pyotr Tolstoy, a 
leading member of Russia's state Duma, which is the lower house of 
their legislature, typifies Russia's reaction. I'm going to quote: ``We 
won't apologize. We won't apologize to Bach, who prepared this 
report''--banning the Russian athletes--``so sweetly.'' We have nothing 
to apologize for. And neither do our athletes.
    And what's more, putting aside the lack of any acceptance of 
responsibility or contrition, Russia has sought to retaliate against 
Dr. Rodchenkov again and again. Only, by the way, after his cooperation 
was revealed--Russia indicted him twice for politically motivated 
crimes. And let's be clear, in order for this sort of system to exist, 
obviously many people had to be involved. It couldn't have possibly 
been one man. No lone wolf could do all the things that were necessary 
in order for even a system that was less sophisticated to succeed. 
There had to be athletes participating, coaches participating, people 
swapping samples, people helping to cover it up.
    Russia, not surprisingly, singled Dr. Rodchenkov out for these 
criminal charges, right? So that shows the motivation. The motivation 
is to silence him. Russian officials have harassed his family, 
confiscated his property, and even declared--and I'm going to quote 
here--that he should be, quote, ``Shot as Stalin would have done.'' And 
to discredit Dr. Rodchenkov, even Russian President Vladimir Putin has 
gotten in the game, on the one hand accusing the FBI of drugging Dr. 
Rodchenkov to elicit a false confession, while at the same time calling 
Dr. Rodchenkov an imbecile and mentally unstable.
    Now, I was an organized crime prosecutor for many years. So I'm 
very used to seeing people who cooperate be discredited, or attempt to 
be discredited, by people that were their conspirators. So let's be 
clear about this. The U.S. didn't pick Dr. Rodchenkov. Russia did. They 
made him the director of the Moscow lab. When opponents of Vitaly Mutko 
started an investigation of Dr. Rodchenkov back in 2011, allegedly for 
distributing performance-enhancing drugs--which was his job--it was the 
Kremlin that quashed those charges so that Grigory Rodchenkov could 
continue the work that they had authorized. So Russia picked this 
witness. Nobody from the West did.
    And to cap things off, just to make it extra sweet, just this week 
Dr. Rodchenkov--you're not going to really believe this unless you've 
seen it in the newspaper--was sued in New York State Supreme Court for 
defamation from three of the Russian athletes who had the most evidence 
against them in the McLaren report, in a lawsuit no doubt backed by the 
Kremlin. And I will say, just on a personal note, I have read media 
reports that an owner of an NBA franchise is helping to finance this 
frivolous lawsuit. And I hope that those reports are inaccurate, 
because if an NBA franchise owner is using NBA revenue to finance a 
lawsuit to attack and silence a whistleblower who's trying to bring 
integrity back to sports, I think that every American and every 
basketball fan would be galled by that. And I certainly hope that the 
NBA is monitoring this closely, because this sends a terrible message--
a terrible message to the players, the fans, and the kids that watch 
that team.
    So this whole litany of retaliation, right, spanning the last year 
and a half, which I've only just summarized--believe me, if you want to 
ask me questions I'll give you 15 more examples--what has the IOC done? 
Because the IOC has power, right? The power is right now the Russian 
Olympic Committee is suspended. And the IOC retained for itself in this 
ban the ability to continue that suspension if Russia didn't behave, if 
it didn't honor the IOC's decision. So all the IOC has to do is to pick 
up the phone and call Vitaly Mutko and say: This ban is going to 
continue in these Olympic Games and future Olympic Games, unless you 
leave our main witness alone. After all, he's testified, given 
affidavits, submitted evidence, been corroborated. I think that's the 
least that they could do, is make a phone call.
    And what has the IOC done? Nothing. They've sat by and watched this 
abhorrent behavior and done not a single thing to stop the Russians. So 
let me ask you a question, do think that that emboldens the Russians 
when they act in this way and no one stops them? Well, you tell me, 
because according to press reports, assuming that they're true, Russian 
responded by retaliating against the IOC and WADA, right? [Laughs.] 
According to press reports, they hacked WADA's and the IOC's computers. 
They leaked their confidential documents. And some Russian Government 
officials have promised to impose sanctions on IOC members and WADA 
executives in retaliation for the ban. Does that sound like behavior 
that deserves its place among other nations upholding Olympic ideals?
    Well, in the midst of all this--just funny twists and turns of this 
case, no one would have guessed what would happen next, right? 
[Laughs.] Because another whistleblower, in the midst of this whole 
thing--not Dr. Rodchenkov, not anyone that he had control of, he 
doesn't even know who it is--someone within Russia leaked a 
confidential database dating back before the Sochi games that the 
Moscow lab had been using to record all of the adverse analytical 
findings before they made them disappear. This is exactly the evidence 
that Russia wouldn't produce. And the whistleblower disclosed it.
    Now, WADA acted. WADA spent much time and ultimately authenticated 
it as a true and exact copy of what's called the LIMS database, the 
laboratory information management system, within the Moscow laboratory. 
And I've been assured by WADA that it is analyzing the thousands and 
thousands of adverse analytical findings stored in that secret 
database, and it will disclose the identities of those athletes to the 
international federations. And if the international federations do not 
bring cases against every single one of those athletes, Olivier Niggli 
said that WADA would do it. And I believe him. So WADA has acted.
    But after the disclosure of the LIMS database, what did the IOC do? 
What did the IOC say? It's been crickets--simply crickets. Not a thing. 
The IOC didn't even disclose the LIMS database to the Court for Sports 
Arbitration, despite the fact that, as I've been told, there are 10 or 
12 athletes whose appeals were being heard who had adverse analytical 
findings that had already been identified in the LIMS database. So it 
would have been critical corroborating information, but the IOC did 
nothing.
    So, despite the overwhelming proof of a state-sponsored doping 
system and epic obstruction and retaliation, IOC President Thomas Bach 
still plans to lift the ban--the suspension, really, of the Russian 
team. And so it's little wonder at this point that information about 
infighting within the IOC executive committee is starting to leak. And 
there's been really one critically important and unfortunate casualty 
to that infighting, because there's a British IOC member named Adam 
Pengilly.
    And Mr. Pengilly, together with Dick Pound, another legendary 
former IOC member, have been the two lone voices willing to stand up to 
Thomas Bach's complicity. And Mr. Pengilly, for reasons that we'll all 
figure out whether it's true or not, has been ejected from the Olympic 
Games in South Korea on the eve of the IOC making a decision whether or 
not to lift the suspension of the Russian team. So one of the, surely, 
dissenting voices within the IOC has now been silenced.
    So, what does this all mean? No one can seriously argue that the 
cowardly and indecisive actions of the IOC are appropriate, will deter 
cheaters, or are fair to clean athletes, Olympic sponsors, or fans. And 
no one can seriously debate the fact that IOC's conflicted policing 
system is broken and is not working. And as a result of that, who's 
defrauded? Everybody knows what fraud is, right? Who's defrauded? Clean 
athletes who invested substantial physical, emotional, and financial 
investments in their training. Sponsors, most of whom, by the way, have 
anti-doping provisions in the contracts that they make the athletes 
sign, including the Russian athletes. Advertisers, international 
federations, and every single country, including the United States, who 
contributes to WADA's fairly large budget.
    Now, I want to put a pin in something, because I think acceptance 
of responsibility is extraordinarily important, and is the measure of 
character of a person or a country. And the sad truth of it is, America 
is not blameless either. We have had our share of cheaters. We have had 
one systematic doping system in a cycling team relatively recently. I'm 
proud of the fact that we stand up, point out, and convict those 
individuals and make sure that they are exposed, no matter how 
important they are, no matter how powerful they are, and no matter how 
much money can be made off of their performances.
    But we shouldn't take victory laps. And we shouldn't realize that 
this is a bit of a glass house. But at the same time, the United States 
has been a leader in the fight for clean sport. And the U.S. Anti-
Doping Administration, USADA, and its president, Travis Tygart, have 
been lions on this issue. And if Congress does anything as a result of 
this saga, I hope that they will increase the budget for USADA so that 
USADA can do more of the good work that it's doing to call out cheaters 
within the United States, and cheaters within the Olympic and 
international communities.
    But honestly, the United States can and, in my view, should do more 
to fight for clean athletes and protect whistleblowers. There are 
countries, such as Austria, Italy, France, and Spain, that have 
actually implemented criminal penalties for doping, because this is all 
about deterrence, right? It's a very simple concept. We learn it when 
we are children. If our actions are punished, then the conduct will 
stop. That is the basis of our criminal justice system. We don't have 
laws to punish doping as a criminal violation. We have many different 
conspiracies that cover many different kinds of fraud, but not fraud 
that embodies doping.
    And this is true, despite the huge impact that international doping 
has on both U.S. athletes and U.S. sponsors, who are the main source of 
revenue for the Olympics and many other world events. So we need to 
change our language. We need to stop calling this doping, and call it 
what it is--doping fraud, right? This is doping fraud--fraud, meaning 
someone pretends that they are clean when they are dirty. It's not 
implicit. They've signed certifications. They've signed contracts 
saying, confirming, certifying that they are clean. And they are dirty. 
And other people get harmed. That's exactly what fraud is. And doping 
fraud should be the watchword in all of our discussions going forward.
    But we can do more, right? I would be happy to work with this 
commission and propose the first doping fraud statute. But it can't be 
an ordinary statute. It's got to be a statute like the Foreign Corrupt 
Practices Act. That is a statute that allows U.S. prosecutors to reach 
even foreign government officials who are involved in bribery that has 
an impact here. And doping is no different. Congress should pass a 
doping fraud statute with a long-armed provision that allows us to 
reach out of the United States and catch the cheaters that destroy the 
lives of America's clean athletes and waste the resources of our 
businesses.
    And one of my friends, when I was talking through this idea, had a 
very clever idea. And his idea was to just amend the Controlled 
Substances Act. The Controlled Substances Act is something that was 
passed in 1970. It's the major drug law in the United States. But it's 
not just drugs such as heroin or cocaine. It actually has on the 
schedule most of the worst performance-enhancing drugs, including all 
of the ones that were being used by Russia during this whole system. So 
we could simply just amend the Controlled Substances Act to include a 
provision that has a long-armed statute that says: When there is a 
conspiracy that affects U.S. persons or corporations, and that 
conspiracy exists outside of the United States, because of the harm 
here, we're going to prosecute it here.
    So that's my recommendation for the day because, let me tell you 
something, if we have a long-armed statute for doping, I guarantee you, 
as long as we used it, this problem would go away. But we also have to 
protect whistleblowers like Dr. Grigory Rodchenkov. I mean, understand, 
the guy risked everything to come here. And what does he have to show 
for it? Not much of a life at all. The IOC has proved utterly toothless 
to do anything to stop the Russians from trying to indict him, 
extradite him, harass him, discredit him, threaten him. And if the IOC 
can't police itself, we need to pass legislation that encourages other 
whistleblowers to come forward--not just from Russia, but from wherever 
there are state-sponsored doping systems.
    So part of this doping fraud statute should have whistleblower 
protections that provide for legal assistance, immigration status, job 
placement, and other kinds of support. And, as importantly, provides 
tools for prosecutors to go after the people that are retaliating 
against the witnesses. Because, let me tell you something, if you're in 
the United States and you try to retaliate against a witness, that is a 
federal crime. It should be no less of a crime because someone who's 
physically here is being retaliated against by someone outside of the 
United States. The harm is here.
    Okay. So thank you for patiently sitting through my remarks. But I 
would like to read a note from Dr. Rodchenkov that he wrote and asked 
me to read to you. Here's the statement. Excuse me for reading:

    ``Thank you for accepting my statement. I hope at some point soon 
my security situation will improve so that I may address this 
commission personally. As you know, I have been cooperating with WADA 
and the IOC to provide full and truthful details of Russia's state-
sponsored doping system, in which I played an important role. I 
sincerely apologize for my actions, which were directed by the Minister 
of Sport Vitaly Mutko and his deputy minister, Yuri Nagornykh. Many 
other high-level officials, including from the Center for Sports 
Preparation, RUSADA--that's the Russian Anti-Doping Agency--and the FSB 
played roles in this scheme, along with many lower-level people. I 
truly had no choice but to play my part in this scheme. But I hope you 
understand, I did much work to advance the goal of clean sport during 
my time as the director of the Moscow Anti-Doping Center.
    ``But despite my extensive cooperation, I am in a very difficult 
position. Russia has openly retaliated against me. About that there can 
be no serious question. They have singled me out for prosecution, 
issued arrest warrants, are seeking my return to Russia, and even 
calling for my execution. Two of my colleagues died under mysterious 
circumstances after this scandal unfolded in 2005. And I fully believe 
they were murdered to silence them. Had I not fled Russia, I am sure I 
would have experienced that same fate.
    ``The IOC has the power to stop Russia's retaliation against me. 
They could simply use the power they retained to continue the 
suspension of the Russian Olympic Committee from participation in the 
ongoing Olympics and future games until Russia stops its efforts. The 
IOC has refused absolutely to use that power. In fact, the IOC seems 
ready to lift the suspension before the closing ceremony in these 
Olympic Games. Putting aside the direct impact on me, this sends a 
terrible message to future whistleblowers. Why should anyone come 
forward if the very guardians of clean sport leave their main witness, 
whose truth they have repeatedly verified, twisting in the wind?
    ``If the IOC has proven completely ineffective at punishing 
countries that dope, it will only embolden cheaters. I ask this 
commission to consider the important role the United States could play 
in both encouraging more whistleblowers to come forward and creating 
meaningful deterrence for such epic cheating. Self-policing by the IOC 
does not work, and WADA lacks the resources, tools, and independence to 
solve these problems. I believe the United States has played a 
leadership role but can and should play an even more forceful role in 
the fight for clean sport and the protection of whistleblowers.''

    Thank you very much for your time and attention. And I'll stay for 
any questions. [Applause.]
    Mr. Massaro. Thank you very much, Jim, for your powerful remarks. 
And I'm really looking forward to working on that legislation with you.
    Mr. Walden. Me too.
    Mr. Massaro. [Laughs] I'm going to ask Jim a couple questions. 
We're going to have a little conversation up here. And then we'll open 
the floor to the audience. So please start considering your questions. 
When I call on you to ask a question, please state your name and 
organization. We'll bring you microphones. Please make sure you speak 
into the mics, since we're being broadcast.
    So to get us started, Jim, during your remarks one question kept 
ringing in my mind. And that was, what is going on with the IOC? You 
know, I mean, again and again you've said, OK, it's not working, it's 
not working, it's not working, it's not--but why is that? Do they need 
structural reform? Is it a lack of deterrence? What's going on?
    Mr. Walden. Listen, I've said before that whether or not the IOC 
intends this or not, these decisions look either corrupt, complicit, 
or, at best, inept. But I'm sure that I'm not being 100 percent fair, 
in the sense that it must be difficult to balance when you need people 
to hold these competitions. You need big countries to hold them. You 
need the revenue that is necessary.
    Questioner. Could you start again?
    Mr. Walden. I've said before, that whether this is the intent or 
not, the actions of the IOC look either corrupt, complicit or, at best, 
inept. But I don't think that that's completely fair, in the sense that 
I'm sure it's difficult to balance the pressures of, on the one hand, 
you know, doping--punishing dopers, but on the other hand, needing 
large countries to host the games, to fund the games, to do all of the 
things that are necessary to make the Olympics go. But we have to have 
one standard of justice, right? There can't be one standard of justice 
for Kuwait and another standard of justice for Russia or America, for 
that matter. So if they're going to punish countries that impact the 
independence of the Olympic Committees and the labs, they have to 
punish those countries equally. And that's why, again, the only 
rational explanation for these decisions is corruption, complicity, or 
ineptitude. And I don't know, Paul, which one it is.
    Mr. Massaro. Thank you, Jim. And my second question concerns the 
other massive international sports association in the world, and that's 
FIFA, right? And despite the fact that the Russian team has been banned 
from the Pyeongchang Olympics, we're looking at a World Cup in Sochi 
next year. So is it a coordination issue? Is there less doping in FIFA? 
Do these organizations not speak to one another? Or is this another 
case of complicity and potential corruption?
    Mr. Walden. Well, I think the problems that FIFA has been having 
with corruption are now well known. There's been a trial in Brooklyn 
where it's been proved. There are other investigations going on. With 
respect to what Dr. Rodchenkov knows about Russia soccer, I've said 
publicly that he can confirm that the Russian football team--or the 
soccer team, as we know it--was protected by the state-sponsored doping 
system, and in particular the disappearing positive methodology. But 
there's a pending investigation going on. I'm not sure if it's a 
credible investigation. But he's certainly going to cooperate with FIFA 
with respect to that investigation.
    On your larger question, Paul, I don't really know. But what I can 
say is corruption's not a long-game strategy. It is not a long-game 
strategy, particularly not in this day and age where all over the 
spectrum of issues that are being faced in the world people are being 
empowered to step forward and tell their secrets, right? We see it in 
the #MeToo movement, thank God. We see it in so many other areas. And 
we're going to see it in doping. And the number of investigations of 
international sports agencies that are now ongoing is dizzying. So if 
they want to have a long-term game and they want to be viable, they 
should stop the corruption, or even the appearance of corruption. 
Because with all of these issues swirling around, to have the World Cup 
in Sochi, of all places, sends a terrible message to the world.
    Mr. Massaro. Great. Thanks. And let me ask a final question. In 
your conversations with Dr. Rodchenkov, have you spoken to him at all 
about the incentive for a nation to dope? It seems to me like in the 
short term we can all imagine, you want to win a few competitions. But 
it does seem like the risk/reward ratio here is way out of whack, you 
know? You get caught, and----
    Mr. Walden. Well, I can't tell you about the private conversations 
we have, obviously.
    Mr. Massaro. Yes, of course. Of course.
    Mr. Walden. I can tell you what he said publicly. And he thinks 
that this is unique in Russia, because of the power of sport in Russia. 
And he believes--and I know that he believes it because I've seen the 
agony on his face as he describes this--that the Sochi success that 
brought Vladimir Putin from an epic low approval rating to an 
incredibly high approval rating, emboldened Russia to invade the 
Ukraine and annex Crimea. Now, is he right, is he wrong, I don't know. 
But what I do know is that, again, doping is not a long-term game. It's 
a short-term game. And I just hope that one of the powerful messages of 
this story--whether the doping is occurring here in the United States 
or it's occurring in any other Western country or any other Eastern 
Bloc country--the day of reckoning is coming.
    Mr. Massaro. Well, thanks so much, Jim. And we'll take questions 
from the audience now. So, please wait until you receive the mic, and 
if you could say your name and organization.
    Questioner. Hi, there. My name is David Larkin. I'm an 
international sport and anticorruption attorney, and probably the only 
one in Washington, D.C. I got dragged into the sport anticorruption 
world about eight years ago by accident. My first comment would be 
directed to Paul. And I'd say, Paul, the United States needs to 
understand something that they don't at the moment. And that is, that 
sport is not about sport at the international level. What's great about 
this case, is that this is a great demonstration that sport is about 
geopolitics. And when you're dealing with sport at the international 
level, you need to understand that it gets hijacked over and over by 
foreign governments because the game dates back to 1936. Hitler's 
Olympics. Sport is a great propaganda tool.
    And so what you see is, you see this incursion into sport by 
foreign nations over and over again. Countries across the world have 
sports ministers. And the United States, almost singularly, does not. 
Why? Because the United States does not understand that sport is 
geopolitics. So the United States Congress gets taken for a ride on 
this over and over. And in fact, I moderated a panel here at the 
Capitol and found persons financed by foreign governments talking about 
the legalization of sports gambling. And that should worry you, Paul. 
It should worry all Americans, because we don't understand this issue 
at all.
    So, Jim, I appreciate what you're doing. I believe your client.
    Mr. Walden. Thank you.
    Questioner. Two questions really. One is, to what degree were 
Russian athletes aware of this systemic program? Because if you watch 
``Icarus,'' if you watch what Dr. Rodchenkov says, he says only a 
portion of Russian athletes were doping at the games at various times, 
right? And so that's really my first question. My second question is, 
is he talks about how WADA should be afraid, okay? Why would WADA need 
to be afraid?
    One last point, Paul--we need to understand in the United States 
that this system of international sport is systemically corrupt. We 
would never allow the Court of Arbitration for Sport to exist and call 
itself a court the way that it currently does in the United States. 
It's gamed. And so we in the United States need to not only address the 
issue in this instance. We have a system of international sport that 
victimizes American athletes, and that's got to be addressed. That's 
the bigger issue here. This is a great and important case, but there's 
a much bigger issue. And that's the victimization of American athletes. 
And I hope you're going to address that.
    Mr. Massaro. Well, if I may, thank you so much for your comments. 
You know, one thing about your comments that strikes me is that we 
really are an outlier. And in that way, I hope we can remain an 
outlier. I think that our take on sportsmanship as being between two 
sportsmen is precisely what sports should be about. [Laughs.] And I 
think that the United States has been able to support the rule of law 
in really interesting ways around the world. And I think one of those 
ways, as Jim hinted at, was the FCPA, through which our companies--you 
know, you wanted U.S. investment, you got to play by the rules of the 
FCPA. And that's stopped bribery. So potentially--I mean, it didn't 
stop bribery entirely, but, you know, it certainly put a dent in it.
    But in any case, if we were able to put some sort of legislation on 
the table, or some sort of incentive for these guys to play similarly 
by rules in which we acknowledge that sports is about sports--
[laughs]--and not about geopolitics, then that would likely be very 
positive. That said, I really, really, really hope it doesn't go in the 
reverse, and the United States ends up thinking, oh, it's about 
geopolitics. We got to play their rules--no. It's about keeping sports 
pure and about sports, you know? And that would just be my comment on 
there. Jim.
    Mr. Walden. David, thanks for your questions. And believe me when I 
say I appreciate that you believe Dr. Rodchenkov. And I think many 
people do. But you really asked two questions., right? The first 
question was, were the Russian athletes aware. And I can't answer that 
question with respect to every Russian athlete. But what I can tell you 
is people don't swish things in their mouth and spit it out for no 
reason, right? That's kind of impossible to believe, that that wouldn't 
tip someone off, even if they hadn't been told, right? And when you're 
asked to give clean urine, you know, hard to believe that you think 
it's normal to give clean urine in a discarded baby bottle or a Coke 
bottle or the different bottles that were being used to collect 
multiple samples of clean athletes, and then give them over to the 
Center for Sports Preparation. Well, why are they doing that?
    But I think that the larger question is the world and, frankly, the 
Court of Arbitration for Sports (CAS) took this case and understood it 
in a way that an American prosecutor would not. They carved up the 
evidence and looked really at the forest with a microscope. Instead of 
realizing that when you look at all of the evidence, including Dr. 
Rodchenkov's evidence and the decades' worth of evidence that exists in 
other places, right--because it's not just him--there is no question 
that this occurred. This is not a serious topic. And there's no one 
that follows the Olympics or world competition that believes the lying 
coming out of the Kremlin. So, yes, the participating Russian athletes 
knew.
    You asked a second question and I, frankly, am not sure I quite 
understood it. I don't remember the line from the movie where he said 
WADA should be afraid.
    Questioner. Basically, that WADA's afraid of what he knows. 
Because, let's be honest, because WADA is part of the problem. I'm just 
saying, you know, in the movie he makes reference to the fact that WADA 
should be--is afraid of him and some of the information he knows. And 
to be frank, WADA's part of the problem. I mean, that's--historically 
in this construct of international sport, WADA's absolutely part of the 
problem. CAS is part of the problem. But it's the entire construct 
that's the problem, that victimizes American athletes. But why was he 
saying that WADA was afraid of him? That's really the question.
    Mr. Walden. Yeah, yeah. So I can answer the question, but I got to 
say, just in all candor, I'm guessing a little bit, right? But I just 
want to tweak one thing that you're saying. This is a system, and the 
system is evolving. And honestly, out of all of the nonsense that we've 
had to deal with with the IOC and WADA--I can't judge historically--but 
at least WADA's doing something now. You know, I believe Craig Reedie, 
I believe Olivier Niggli when they look me in the eye and say: We are 
going after these cases. And I look forward to it, because when the 
LIMS data is revealed, no one is going to be able to dispute Dr. 
Rodchenkov's truth. It would literally be impossible given the 
staggering number of athletes that have adverse analytical findings 
there.
    But what I think that Dr. Rodchenkov is probably referring to is, 
you remember that there was a time when the Moscow lab was almost 
banned, right, just before Sochi. And if the Moscow lab--not banned, 
suspended, I guess. If that had happened, Russia would have had a huge 
problem running the Sochi Games, and implementing the state-sponsored 
doping system, right, because all of their samples then would have to 
be sent to other labs and they couldn't control the swapping, et 
cetera, et cetera. And I think that Dr. Rodchenkov believes that he was 
given a pass there.
    And I don't think that he believes that it was corrupt, but that 
all of these agencies are much more forgiving than they should be, and 
much less skeptical and much less rigorous. And there are many, many 
different factors--human error, human incompetence, lack of 
independence, many different pressures put on these institutions. So 
I'm sorry to give you an ``I think,'' but I think that's probably what 
he was referring to.
    Mr. Massaro. Great, thank you. Other questions? Please. No other 
questions from the audience, huh? Okay, Stacy, do we have any from 
Facebook?
    Mr. Walden. Wow.
    Mr. Massaro. Wow. Yes, I guess you were very comprehensive, Jim. 
[Laughter.] Well, that's great. In that case, thank you so very much, 
everyone. That was a fabulous briefing. Let me make mention of a 
hearing we'll be having on February 28th, for all you Russia watchers 
out there, on the legacy of Boris Nemtsov, all right?
    Thank you so much. And with that, we'll close the briefing.
    Mr. Walden. Thanks, everyone. Thank you.
    Mr. Massaro. Thank you, Jim.
    [Whereupon, at 4:38 p.m., the briefing ended.]

                                  [all]
                                  
                                  
                                  
 
  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.


                                    * * *
                        
                 
                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                                    * * *
           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                                    * * *
                                    
                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
